Service List, 20-255
Attorneys for Petitioner

Attorneys for Respondents

Lisa Schiavo Blatt
Counsel of Record
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
lblatt@wc.com
202-434-5050
Party name: Mahanoy Area School District

Witold J. Walczak
Counsel of Record
ACLU of Pennsylvania
P.O. Box 23058
Pittsburgh, PA 15222
vwalczak@aclupa.org
412-681-7864
Party name: B.L., a minor, by and through
her father Lawrence Levy and
her mother Betty Lou Levy

Other (will be served electronically)
Gregory George Garre
Counsel of Record
Latham & Watkins LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
gregory.garre@lw.com
202-637-2200
Party name: National School Boards Association, et al.
Christopher Blewer Gilbert
Counsel of Record
Thompson & Horton LLP
3200 Southwest Freeway
Suite 2000
Houston, TX 77027
cgilbert@thompsonhorton.com
7135546744
Party name: National Association of Pupil
Services Administrators and
Pennsylvania Association of Pupil Services Administrators
Douglas S. Martland
Counsel of Record
Commonwealth of Massachusetts, et. al
1 Ashburton Place 20th Floor
Boston, MA 02108
douglas.martland@mass.gov 617-963-2062
Party name: Massachusetts, et al.

Alice Margaret O'Brien
Counsel of Record
National Education Association
1201 16th Street, NW
Washington, DC 20036
aobrien@nea.org
202 822 7035
Party name: Nation Education Association
Elizabeth B. Prelogar
Counsel of Record
Acting Solicitor General
United States Department of Justice 950
Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217
Party name: United States
Eddie Travis Ramey
Counsel of Record
Burr & Forman LLP
420 North 20th Street,
Wells Fargo Tower, Suite 3400
Birmingham, AL 35203
tramey@burr.com
2052513000
Party name: The Huntsville, Alabama City
Board of Education and Eleven
Additional Alabama School
Districts

David Beryl Rubin
Counsel of Record
The Busch Law Group LLC
450 Main Street, P.O. Box 4579
Metuchen, NJ 08840
drubin@buschlawgroup.com
9088964482
Party name: Cyberbullying Research Center,
Committee for Children, Council of Administrators of Special
Education, Garden State Equality, The Bully Project, STOMP
Out Bullying, One Circle Foundation and SEL4NJ
Jay Alan Sekulow
Counsel of Record
American Center for Law and Justice
201 Maryland Avenue, N.E.
Washington, DC 20002
sekulow@aclj.org
2025468890
Party name: American Center for Law and
Justice
Misha Tseytlin
Counsel of Record
Troutman Pepper Hamilton Sanders LLP
227 W. Monroe, Suite 3900
Chicago, IL 60606
misha.tseytlin@troutman.com
(312) 759-5947
Party name: First Amendment and Education Law Scholars
Michael Hugh McGinley
Counsel of Record
Dechert LLP
1900 K Street, NW
Washington, DC 20006
michael.mcginley@dechert.com
202-261-3378
Party name: Pennsylvania School Boards
Association and Pennsylvania
Principals Association

